   March 21, 2003




Acquisition


Allegations Concerning Government
Acceptance Procedures for a
Contractor’s Parts
(D-2003-065)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

CAR                   Corrective Action Request
CoC                   Certificate of Conformance
DCMA                  Defense Contract Management Agency
DCMC                  Defense Contract Management Command
DSC                   Defense Supply Center
OIG DoD               Office of the Inspector General, Department of Defense
NAVICP-M              Naval Inventory Control Point, Mechanicsburg, Pennsylvania
QAR                   Quality Assurance Representative
          Office of the Inspector General of the Department of Defense

Report No. D-2003-065                                    March 21, 2003
 (Project No. D2002PT-0089)

       Allegations Concerning Government Acceptance Procedures
                         for a Contractor’s Parts

                                Executive Summary

Who Should Read This Report and Why? Civilian and military personnel at the
Defense Contract Management Agency, who administer or provide oversight of contract
administration services, and specifically quality assurance functions, should read this
report. The report provides the results of the evaluation of allegations made by a
Government contractor.

Background. Congressman Robert Andrews initially brought a contractor’s allegations
to the attention of the Office of the Inspector General of the Department of Defense in a
February 2001 letter. The Congressman requested assistance for a small business
(contractor) located in New Jersey, who reported having difficulty executing contracts
through the Defense Contract Management Command (now called Defense Contract
Management Agency). The contractor manufactures and supplies parts to the
Government and industry.

In June 2001, the contractor requested that the Office of the Inspector General of the
Department of Defense end its evaluation and close the case because most of the parts
involved in the dispute with the Defense Contract Management Agency had been
shipped. However, in January 2002, Congressman Andrews again asked for assistance
from the Office of the Inspector General in a letter that included documentation on the
contractor’s problem orders. The contractor provided additional documentation on
14 specific disputes with Defense Contract Management Agency in February and March
2002. The dollar value of the purchase orders associated with the 14 disputes was
$39,593.84. The Office of the Inspector General reopened the case and evaluated the
allegations.

Results. The contractor’s allegations could not be substantiated and that the Defense
Contract Management Agency’s positions were supported by regulations in each of the
14 cases. The Defense Contract Management Agency’s Quality Assurance
Representatives properly performed their responsibilities of assuring the adequacy and
authenticity of certifications and inspection and test reports in accordance with the
Federal Acquisition Regulation and Defense Contract Management Agency policies.

Management Comments. We provided a draft of this report on January 15, 2003. No
written response to this report was required, and none was received. Therefore, we are
publishing this report in final form.
Table of Contents
Executive Summary                                                        i

Background                                                              1

Objectives                                                              2

Finding
     Defense Contract Management Agency’s Acceptance Procedures for a
        Contractor’s Parts                                              3

Appendixes
     A. Scope and Methodology                                           12
     B. Congressional Request                                           13
     C. Report Distribution                                             14
Background
    In a February 19, 2001, letter (see Appendix B), Congressman Robert Andrews
    requested that the Office of the Inspector General of the Department of Defense
    (OIG DoD) provide assistance to the owner of a small business in New Jersey,
    that manufactured and supplied parts to the Government. The contractor reported
    having problems executing contracts with the Defense Contract Management
    Command (DCMC) dating back to October 1999. However, on June 7, 2001, the
    contractor informed the OIG DoD that most of the parts that had been in dispute
    had been shipped, and requested that the case be closed. The OIG DoD informed
    Congressman Andrews that the case had been closed at the request of the
    contractor.

    On September 14, 2001, Congressman Andrews stated in his letter to OIG DoD
    that the contractor was not pleased that the case had been closed and had
    submitted a letter of rebuttal to the congressman’s office. In an October 25, 2001,
    letter, the technical director of the Technical Assessment Division in the OIG
    DoD requested the contractor to send documentation relevant to the allegations
    against DCMC. On December 21, 2001, the OIG DoD informed the congressman
    that the case was closed, since the contractor had failed to provide the promised
    documentation.

    On January 14, 2002, Congressman Andrews forwarded the documents he
    received from the contractor to the OIG DoD. Further documentation on
    14 specific disputed orders followed from the contractor in February and March
    2002. The dollar value of the purchase orders associated with the14 disputes was
    $39,593.84. The OIG DoD announced the evaluation on February 22, 2002.

    Defense Contract Management Agency. On March 27, 2000, DCMC was
    established as a separate agency and renamed as the Defense Contract
    Management Agency (DCMA). In December 1973, DCMA Philadelphia was
    established to provide contract administration services for military supply
    contracts in Philadelphia, New Jersey, and Delaware. The DCMA is the DoD
    Component that works directly with Defense suppliers to help ensure that
    Government supplies and services are delivered on time, at projected cost, and
    meet all performance requirements. DCMA performs oversight of contractors’
    processes to assess and assure compliance with contractor quality and technical
    requirements. DCMA Quality Assurance Representatives (QARs) are Level II
    certified quality assurance specialists.

    The Contractor. The contractor’s firm, established in 1985, is a small, woman-
    owned business that manufactures and supplies parts to the Government and
    industry. The contractor manufactures military spare parts for existing equipment
    and supplies small quantities of materials in 137 different Federal Supply Classes.
    Manufactured and supplied spare parts include machined parts and assemblies,
    sheet metal products, steel rule die cut gaskets and seals, electrical cable and
    harness assemblies, mechanical cable assemblies and slings, hydraulic and
    pneumatic pipes, tubing and hose assemblies and complex electro-mechanical
    assemblies. The contractor reported that the problems with DCMA started in
    October 1999 when a new QAR was assigned to the company.


                                         1
Objectives
    The objective of the evaluation was to review the allegations concerning
    Government acceptance procedures used by the DCMA Philadelphia QARs for
    the parts supplied by a contractor. We also reviewed the timeliness of the QAR
    inspection and quality assurance procedures used for inspecting the contractor’s
    parts. See Appendix A for a discussion of the scope and methodology.




                                        2
            Defense Contract Management Agency’s
            Acceptance Procedures for a Contractor’s
            Parts
            The contractor’s allegations were unsubstantiated, and the DCMA
            positions were supported by regulations in each of the 14 cases that we
            reviewed. The DCMA QARs properly performed their responsibilities of
            assuring the adequacy and authenticity of certifications and inspection and
            test reports in accordance with the Federal Acquisition Regulation and
            DCMA policies. We also determined that a poor working relationship
            existed between DCMA representatives and the contractor. Each side
            accused the other of inappropriate, inflammatory statements.

Responsibilities of Quality Assurance Representatives
     The DCMA QARs review contractors’ manufacturing, production, and quality
     assurance processes, and inspect products that the contractor presents for
     Government acceptance. When a buying organization assigns DCMA the
     responsibility of inspecting and accepting parts at origin, the QARs conduct their
     inspections in accordance with the FAR; DCMA instructions, such as the One
     Book; quality technical information papers; and requirements specified by the
     buying organization. The buyers’ requirements are specified in their contracts,
     which include or refer to drawings and specifications. Waivers and deviations to
     a buyer’s requirements must be processed by the contractor with the buyer in
     accordance with procedures identified in the contract. The QARs ensure that the
     Government accepts only those products that meet the explicit, contractual
     requirements of the buying organization.

The Contractor’s Allegations
     The contractor’s allegations included instances of fraud, waste, and abuse in
     Government contracting; willful destruction of Government property; falsification
     of Government forms; restriction of competition in Government contracting;
     failure to comply with contractual requirements; imposing quality requirements
     beyond the scope of a Government contract; encouragement to falsify
     certifications on Government contracts; encouragement to supply defective goods
     on Government contracts; restriction of trade; unnecessary delays in the supply of
     DoD materials; and intimidation, threats, and abuse. When requested to
     substantiate the allegations, the contractor submitted documentation on 14 cases.
     We reviewed the 14 cases with the contractor and DCMA personnel. A summary
     of the allegations and our evaluation results follows.




                                          3
Case 1. Water Pump Hold Down Clamp Assembly.

Allegation. The QAR apparently lacked the skill to interpret the
drawing/technical data package. The QAR created an environment, which caused
the termination of the order.

Results. The allegation was not substantiated. The requirement was to produce
parts according to the dimensions specified in the drawing, but the contractor
failed to meet the requirement.

On March 20, 2000, the Defense Supply Center (DSC) Columbus placed an order
with the contractor for the purchase of four water pump, hold-down clamp
assemblies, valued at $643.24, and required the contractor to deliver the items by
July 18, 2000. The DSC Columbus canceled the purchase order on September 21,
2000, because the ordered parts were not delivered on time. A drawing was
provided with detailed dimensions of the assembly parts. A review of the
drawing and statement of events provided with the contractor’s documents
indicated that the required width of one of the parts of the assembly (bridge) was
0.88 inch, but the contractor’s fabricated part was 1 inch wide. The QAR rejected
the part because the width was not to the dimension specified in the drawing.

Case 2. Catch Plate, Weldment

Allegation. The QAR demanded material certifications beyond the scope of the
purchase order, which resulted in the cancellation of the order.

Results. The allegation was not substantiated. The contractor did not provide a
complete Certificate of Conformance (CoC) to ensure material traceability. The
requirements for QAR review of traceability are specified in Defense Supply
Agency Manual (DSAM) 8200.1.

On March 6, 2000, DSC Columbus placed a purchase order, valued at $409.98,
with the contractor for two catch plate, weldments that were to be delivered by
July 4, 2000. DSC Columbus canceled the order on May 3, 2001, because the
parts were not delivered on time. A drawing provided dimensions of the part, a
material list, and notes on the surface finish and welding requirements. At the
time that the parts were inspected, the QAR refused to accept them because the
material certification format failed to provide the required information. The QAR
cited DSAM 8200.1, Part 2, Paragraph 5-202, Statements of Quality which states
“…Acceptable statements of quality should identify completely the material or
item by lot number, production date, or item serial number, state the specification
or drawing number, revision, and date, the grade, type, or value for which the
product was inspected…” The QAR stated that it was a standard practice of the
steel distributors to issue a CoC that provided all relevant information concerning
the source of material, chemical composition, and physical and mechanical
properties. The contractor presented a steel distributor’s certificate that did not
contain the required information. On May 3, 2001, DSC Columbus canceled the
order, because the parts were not delivered by the due date.




                                     4
Case 3. Throttle Bracket Assembly

Allegation. The QAR lacked the experience in manufactured items to understand
the supply of commercial sheet stock to commercial specifications, and demanded
material certifications beyond the scope of the order, which resulted in the
cancellation of the order.

Results. The allegation was not substantiated. The QAR assigned to perform
quality assurance at the contractor facility was Level II certified in the quality
assurance processes as required. The contractor did not provide a complete CoC
to ensure material traceability according to the requirement specified in
DSAM 8200.1.

On December 1, 1999, DSC Columbus placed an order; valued at $375.00, with
the contractor for one throttle bracket assembly. The delivery date was March 30,
2000. On June 5, 2001, DSC Columbus canceled the order due to the contractor’s
inability to provide required certifications by the modified September 25, 2000,
delivery date. The part was to be fabricated according to drawing numbers
845031C2000 through 2003. The drawings specified bracket assembly material
as H.R.S. ASTM A 36, 0.075 inch thick x 1.75 inches wide strip and 0.048 inch
thick x 0.75 inch wide strip. But the contractor purchased two ASTM A 366 steel
pieces of the size 12 inches x 12 inches and 14-gage and 18-gage thickness from a
steel distributor. The contractor provided a CoC signed by the president of the
steel distributor company certifying that the steel pieces were ASTM A 366
carbon steel. Upon inspection, the QAR issued a Quality Deficiency Record
stating that the drawings required material to be A 36. In addition, the material
certification was unacceptable because it failed to list the heat number, chemical
and physical requirements, and name of the certifying official.

Case 4. Shoulder Bolt

Allegation. The QAR demanded inspection equipment beyond the scope of the
order. The result was that the DoD buying organization had to remove DCMC
from the order to get the bolt.

Results. The allegation was not substantiated. The contractor did not provide
thread measurement tools to the QAR for inspection of threads as specified in the
drawing.

On September 27, 2000, the Naval Inventory Control Point, Mechanicsburg
(NAVICP-M), Pennsylvania, ordered one special (17mm diameter x 67 mm
length) shoulder bolt, valued at $445.00. On March 14, 2001, NAVICP-M issued
a Modification of Contract document that changed the place of inspection and
acceptance to destination and extended the delivery date from November 27,
2000, to April 20, 2001. On March 19, 2001, the part was shipped to the new
destination. The shoulder bolt drawing (No. 5520293) provided precise
specifications and information on material, plating, and applicable standards for
threads (FED-STD-H28) and quality (FF-S-85) in nine notes. The QAR could not
test the part according to the testing requirement specified in FF-S-85, because the
contractor did not provide specified measuring tools and equipment. The
contractor cited FED-STD-H28/20B, Paragraph 5.1.6 “Small Lot and


                                     5
Nonstandard Size Part Considerations,” which stated in part: “When gages...are
not economically feasible...other measuring equipment may be agreed upon by
the parties involved.” However, the parties involved did not agree on an
alternative method or tools for inspecting the shoulder bolt. Therefore, the QAR
requested the gages in accordance with the requirements stated in the drawing.

Case 5. Winch Assembly

Allegation. The QAR inappropriately refused to inspect the winch until all of its
components were inspected before assembly. The company had to tear the
assemblies apart because the QAR insisted upon in-process inspection and did not
accept their in-process inspection reports. The contractor had to submit to “in-
process inspection” for each piece part, every step of the way.

Results. The allegation was not substantiated. The QAR followed a FAR clause
that allowed the Government inspection at any stage of manufacturing. The parts
were eventually accepted.

On March 10, 2000, DSC Columbus placed a purchase order for one hand-
operated winch assembly valued at $909.54. The delivery date was July 8, 2000.
On March 17, 2000, DSC Columbus placed another purchase order for seven
more hand-operated winch assemblies that were to be delivered by August 4,
2000, with a dollar value of $6,265.00. The QAR performed in-process
inspection of the assembly parts on June 27, 2000, in accordance with the
following FAR clause and signed off on the assemblies after inspection. The
FAR Subpart 46.4, Government Contract Quality Assurance, Paragraph 46.401
General (a) states in part, “Government contract quality assurance shall be
performed at such times (including any stage of manufacture or performance of
services) and places (including subcontractors’ plants) as may be necessary to
determine that the supplies or services conform to contract requirements….”

Case 6. Hydraulic Cylinders

Allegation. The QAR refused to accept material based on “reference
information” used by the manufacturer for part identification.

Results. The allegation was not substantiated. The information presented to the
QAR at the time of inspection did not match the requirement specified in the
purchase order, so the QAR asked for clarification. When the buying
organization issued a Modification of Contract that clarified the part number, the
QAR accepted the parts.

On April 4, 2001, NAVICP-M, Pennsylvania ordered six hydraulic cylinders,
valued at $3,860.94, for delivery by July 3, 2001. Drawing No. PS2-12119
provided specifications of the hydraulic cylinder. The drawing highlighted Part
No. PS2-12119-2, STYLE: C/2/3.75/2/1/4J/2 and PART IDENTIFICATION:
Manufacturer’s Standard. The contractor did not manufacture the hydraulic
cylinders but purchased the ordered quantity from a vendor. The QAR stated that
the original information shown to him by the contractor did not match the
requirements specified in the purchase order, and the accompanying certificate
had a completely different part number. So the QAR verbally asked the


                                     6
contractor for clarification. On August 24, 2001, the NAVINCP-M issued a
Modification of Contract document for the part, approved the vendor, and also
changed the delivery date to September 28, 2001. After the contract modification
order clarified the situation, the QAR accepted the parts.

Case 7. Stainless Steel Shaft

Allegation. The QAR rejected acceptable materials.

Results. The allegation was not substantiated. The contractor produced parts that
did not meet the material and dimensional specifications provided on the drawing.
The QAR rejected the shafts because the parts were out of tolerance and also were
not stamped as required.

On October 19, 1999, DSC Columbus placed an order with the contractor to
supply three stainless steel Class 302 Condition A shafts, valued at $561.06,
manufactured according to drawing No. 2662333 by February 16, 2000. The
shafts were also required to pass Product Verification Testing before acceptance.
The QAR inspection reports state that the drawing required shaft material to be
QQ-S-763 Class 302 Condition A. The contractor purchased Class 304 stainless
steel, had it recertified to Class 302, and stamped wrong part numbers on the
shafts. Additionally, the 0.375 inch diameter on three shafts inspected were up to
0.003 inch under size and up to 0.0015 inch over size, and the 0.4997 inch
diameter was up to 0.0004 inch under size. The Product Testing Center in
Columbus also tested the shafts. The Product Verification Testing report stated
that some shafts did not meet the concentricity requirement. On April 4, 2001,
the contractor wrote a letter to DSC Columbus admitting that some parts were out
of tolerance and requested a one-time deviation or waiver. DSC Columbus did
not issue a waiver and, on January 12, 2002, canceled the order.

Case 8. Terminal Lug

Allegation. The QAR demanded “Commercial Certifications” on one order, and
then demanded “Military Certifications” on the next order for the same part.

Results. The allegation was not substantiated. The QAR refused to accept
obsolete parts offered by the contractor that did not meet the commercial
certification requirement of the purchase order.

On April 17, 2000, DSC Richmond placed an order for four terminal lugs, valued
at $198.04, to conform to commercial specification (SAE AS 7928/4 Type
No. P/N/ M7928/4-117) and required that the parts be delivered by June 16, 2000.
On May 15, 2001, DSC Richmond placed another order for eight terminal lugs,
valued at $226.08 with the same commercial specification for delivery by July 14,
2001. On May 5, 2000, the contractor wrote a letter to DSC Richmond stating
that the QAR refused to accept the terminal lugs because there was no reference
to AS 7928/4 on the CoC, and requested DSC Richmond to modify the order to
include AS 7928/4 Alt Mil-T-7928/4. DSC Richmond denied the contractor’s
request and stated that the material was unacceptable because the parts offered
were obsolete. A review of the two DSC Richmond purchase orders by the OIG
DoD team revealed that both orders required the terminal lugs to conform to the


                                    7
same commercial specifications: SAE AS 7928/4, Type No. P/N M7928/4-117.
For the first order, the contractor offered obsolete terminal lugs that conformed to
a military specification that was canceled on August 31, 1999. When reminded,
the contractor filled both orders with the terminal lugs that conformed to the
commercial specifications specified in the purchase orders.

Case 9. Detent Pin

Allegation. The QAR demanded “Full Form” certifications when they were not
required.

Results. The allegation was not substantiated. The contractor did not provide a
material certificate that met the requirement of the purchase order.

On August 13, 2001, NAVINT-M placed an order for 10 detent pins, valued at
$1,036.50, for delivery by December 31, 2001. Drawing No. 5652276 was
attached with the order to provide dimensions and material specifications (ASTM
B 150-80, Al Bronze, Copper Alloy C62400 Cond HR50, 0.50 inch diameter rod).
In his inspection report, the QAR stated that the material certificate was not
acceptable, because the mill that produced the material did not issue the
certificate. The certificate presented failed to list the condition of the material and
did not state whether it met the yield strength requirement. The QAR stated that
the rationale for demanding a Full Form certificate of conformance for material
was to ensure that the material met the requirement and that no substandard
material was used. However, the contractor contended that the information on the
yield strength was not required and that the first folder given to the QAR
contained a wrong certificate. A January 10, 2002, NAVICP-M Modification of
Contract deleted the Government source inspection requirement and allowed the
parts to be shipped to the destination for inspection.

Case 10. Special Purpose Cable Assembly

Allegation. The QAR demanded thread gages for connector back shells.

Results. The allegation was not substantiated. The contractor did not provide the
gages for measuring threads on the adapter cable and the nut in accordance with
the requirements specified in the Handbook, FED-STD-H28, Screw-Thread
Standards for Federal Services.

On September 30, 2001, DSC Richmond placed an order, valued at $2,610.00, for
three special-purpose cable assemblies for delivery by February 17, 2002. The
QARs performed in-process inspection on November 20, 2001, and rejected the
contractor’s submission as the required go-no go ring and plug gages were not
provided for inspection. The FED-STD-H28 Handbook addresses small lots and
odd sizes as follows. “When gages...are not economically feasible...other
measuring equipment may be agreed upon by the parties involved.” The
contractor and the QAR did not have an agreement on an alternative inspection
method. The contractor complained to DSC Richmond that the adapter threads
were verified and accepted by using pitch micrometer, thread wires, an outside
diameter micrometer for the “A” threads, and inside micrometers and thread pitch
gages for the “B” threads, but the QAR rejected the parts. In response, DSC


                                      8
Richmond issued a Modification of Contract that deleted source inspection. The
contractor shipped the parts to DSC Richmond on January 29, 2002.

Case 11. Electrical Contact Pins

Allegation. The QAR rejected acceptable material.

Results. The allegation was not substantiated. The contractor did not provide the
gages for measuring hole diameters, so the QAR could not check the dimensions
and therefore rejected the parts.

On April 11, 2000, NAVICP-M placed an order with the contractor to supply
51 contact pins, valued at $2,422.50, by August 29, 2000. Several DoD and
military standards were cited and drawing No. 11897, dated April 10, 1986, was
also attached with the order. The drawing provided dimensions and eight notes
detailing information on material (beryllium copper), heat treatment, finish, and
plating requirements. The QAR inspected six contact pins on August 16, 2000,
recorded two deficiencies in the Corrective Action Request (CAR), and asked the
contractor to rectify the defects. On August 16, 2000, the QAR issued a Quality
Assurance Representative’s Correspondence, which stated that the contractor did
not have proper gages for measuring the dimensions of the pins, and that he must
have the capability of measuring all dimensions specified in Government
drawings. On September 12, 2000, the contractor requested another in-process
inspection. On October 2, 2000, the QAR visited the contractor, performed final
inspection, and accepted the lot.

Case 12. Roller-Housing Assembly

Allegation. The QAR required processes beyond the scope of the order and
specifications and rejected acceptable parts.

Results. The allegation was not substantiated. The QAR did not require
processes beyond the scope of the purchase order. DoD-P-16232F, paragraph 3.8,
Dimensions of Coated Items, requires that dimensions of the item comply with
the drawing requirements before phosphate coating and comply with dimensional
requirements of the drawing, with allowance for the phosphate coating buildup.
On October 31, 2000, the NAVICP-M placed an order with the contractor to
supply five roller-housing assemblies, valued at $7,607.75, by April 30, 2001, and
on January 18, 2001, another order for two additional roller-housing assemblies,
valued at $6,780.62, with a delivery date of June 27, 2001. Drawing No. 5209533
for clip, belt and drawing No. 5209532 for belt assembly provided the
dimensional and coating requirements. On May 29, 2001, the QAR prepared a
CAR stating that parts were already phosphate coated and that parts
measurements must be taken before coating. A July 2, 2001, CAR stated that two
holes were slightly oversized. The contractor admitted that the holes were
oversized and ordered new parts. On July 24, 2001, the QAR signed off on five
roller assemblies and, on August 1, 2001, signed off on the remaining two
assemblies.




                                    9
Case 13. Knife Assembly

Allegation. The QAR abused his power to deliberately delay shipment for
3 months.

Results. The allegation was not substantiated. Several factors contributed to the
delay of the shipment. The contractor started assembly work late, approximately
3 weeks after the expected delivery date. When the QAR inspected the knife
assemblies, he found some of the parts were assembled incorrectly. The QARs
did not visit the contractor to inspect the corrected assemblies until an agreement
was reached on the contractor’s point of contact for quality related issues.

On June 7, 2001, NAVICP-M placed an order with the contractor to supply
20 knife assemblies, valued at $3,114.30, by October 25, 2001. On December 19,
2001, the QAR inspected the assemblies and prepared a CAR that stated that four
of six knife assemblies inspected were assembled the wrong way. The contractor
wrote a letter to NAVICP-M admitting the mistakes, but stated that the mistakes
were corrected while the QAR was still writing the CAR. But the QAR did not
inspect the corrected assemblies. A review of the documents indicated that
although the assembly delivery date was October 25, 2001, the contractor did not
start assembling the knives until November 13, 2001, and requested the first
inspection for December 13, 2001, which was approximately 6 weeks past the
delivery date. The QAR explained that he could not stay in the plant on
December 19, 2001, while the two inspected assemblies were being corrected
because he had other obligations. On January 3, 2002, two QARs returned to
inspect the knife assemblies but left without inspecting the assemblies following a
confrontation. The inspection issue was later resolved. After an agreement was
reached and the contractor’s point of contact for quality control issues was signed,
the knife assemblies were inspected. The parts were shipped on February 11,
2002.

Case 14. Red and Blue Insulation Sleevings

Allegation. The QAR lacked the training, or initiative, to evaluate a Specification
Control Drawing.

Results. The allegation was not substantiated. The QAR was trained to evaluate
a Specification Control Drawing and pointed out a deficiency in the CoCs
provided by the contractor.

On March 15, 2000, NAVICP-M placed an order with the contractor for 1,750 red
insulation sleevings and 1,181 blue insulation sleevings, valued at $1,694.29, to
be delivered by July 13, 2000. On October 19, 2000, NAVICP-M placed another
order for 200 blue insulation sleevings, valued at $434.00, with a delivery date of
January 17, 2001. On August 10, 2000, the QAR issued a CAR stating that the
CoCs from the two suppliers were insufficient because they failed to list whether
the parts satisfied Ordinance Spec. OS 12421 requirements. When the contractor
complained, NAVICP-M issued a modification on November 22, 2000, directing
that parts be inspected at the destination.




                                     10
Working Relationship
    Although the DCMA representatives’ actions were supported by regulations, there
    was a poor working relationship between DCMA representatives and the
    contractor. Each side accused the other of inappropriate, inflammatory
    statements. The relationship had deteriorated to such an extent that on one
    occasion the QARs left the contractor’s facility following a confrontation.
    Subsequently, the contractor signed an agreement with DCMA on February 6,
    2002, stating that the contractor’s Quality Control Manager was designated as the
    sole point of contact to deal with the quality related issues between the two
    organizations.

Summary
    The contractor presented documentation on 14 cases that the contractor chose to
    support the allegations. We evaluated the 14 cases and discussed them with
    DCMA and contractor personnel. The contractor’s allegations were not
    substantiated and the DCMA positions on each case were supported by
    regulations.




                                       11
Appendix A. Scope and Methodology
    We reviewed documentation pertaining to the 14 specific disputes that the
    contractor sent to the OIG DoD. The dollar value of the purchase orders
    associated with the disputes was $39,593.84. We reviewed the FAR and DCMA
    policy on Quality Assurance of the Government parts and supplies. We visited
    Headquarters DCMA, DCMA Philadelphia, and the contractor’s facility to obtain
    information and documentation relative to the allegations.

    We performed this evaluation from February 22, 2002, through September 16,
    2002, according to standards implemented by the Inspector General of the
    Department of Defense. We did not review management controls because our
    scope was limited to a review of the allegations.
    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the Contract Management high-risk area.

Prior Coverage
    No prior coverage has been conducted on the Government Acceptance Procedures
    for parts supplied by this contractor during the last 5 years.




                                       12
Appendix B. Congressional Request




                                    Note:
                                    Contractor
                                    Information
                                    omitted by
                                    request.




                     13
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Management Agency
Director, Defense Contract Management Agency, Philadelphia

Non-Defense Federal Organization
Office of Management and Budget




                                          14
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform

Honorable Robert E. Andrews, U.S. House of Representatives




                                          15
Team Members
The Audit Followup and Technical Support Directorate, Office of the Assistant
Inspector General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

David A. Brinkman
Kenneth H. Stavenjord
Chandra P. Sankhla
Cindy L. Gladden
Jacqueline N. Pugh
